 CORPORATION FOR PUBLIC BROADCASTING
     OFFICE OF INSPECTOR GENERAL




      AUDIT OF CPB GRANTS AWARDED TO THE
     VISION MAKER MEDIA, LINCOLN, NEBRASKA
FOR THE PERIOD OCTOBER 1, 2010 - SEPTEMBER 30, 2013


          AUDIT REPORT NO. APT1304-1406



                 September 10, 2014
Corporation                                                                       Qffice of lnspector GeneraI
for Public
Broadcasting



Date:          September 10.2014

To:            Jackie J. Livesay, Vice President, Compliance

cc:            Joseph Tovares, Senior Vice President for Diversity & Innovation

From:          Mary Milchelson. Inspector General /l/f^**? yZA^^^^p^^
Subject:       Audit of CPB Grants Awarded to Vision Maker Media, Lincoln Nebraska for the
               Period October 1, 2010 - September 30, 2013. Audit Report No. APT 1304-1406

                                               SUMMARY


We have audited the accompanying financial grant reports (Exhibits C-E) for Vision Maker
Media (VMM) for the three-year period ending September 30. 2013. The objectives of our audit
were to determine whether: 1) financial reports fairly present Corporation for Public
Broadcasting (CPB) grant revenues and expenditures; 2) costs were incurred in accordance with
grant requirements; and 3) VMM complied with applicable provisions of the Public Broadcasting
Act.


Based on our audit VMM complied with grant requirements and applicable provisions of the
Public Broadcasting Act. except for the following matters:

      •   VMM did not accurately report cash needs when submitting grant payment requests, this
          resulted in VMM accumulating excessive CPB cash balances of $790,258 as of
          September 30. 2013;1

      •   Questioned costs totaling $276,905 for lack of documentation of actual expenditures on
          multiple production projects; and

      •   VMM's oversight of sub-agreement productions needs improvement to ensure projects
          are completed and properly closed-out to fully account for and use CPB funding.

We recommend that CPB officials: 1) enforce existing grant agreement terms and require VMM
to manage cash request as required by the grant agreement: and 2) improve CPB's internal
procedure for reviewing payment requests to ensure grantee requests comply with grant terms
and grantee does not accumulate excess cash that exceed quarterly needs. We also recommend
that CPB require VMM to: 3) refund $276,905 in questioned costs, that are part of the excess

1As of April 30. 2014 VMM*s cash balance has been reduced to S 675.439.
401 Ninth Street, NW
Washington. DC 20004-2129
202.879.9669 202.879.9699 fax

www.cpb.org/olg
